HHS/OIG, Audit -"Summary Report on Universities' Compliance With Select Agent Regulations,"(A-04-05-02006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Summary
Report on Universities' Compliance With Select Agent Regulations," (A-04-05-02006)
June 30, 2006
Complete
Text of Report is available in PDF format (437 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report summarizes the results of our reviews of 15 universities compliance with select
agent regulations. Due to the sensitivity of the issues we identified, we restricted the
distribution of each report to the individual university and the CDC.  The objective
of this review was to determine whether each of the 15 universities had established controls
over select agents in compliance with Federal regulations.
As required, each of the 15 universities had appointed a Responsible Official to provide
management oversight of its select agent program.  However, at 11 of the 15 universities,
certain other controls did not comply with Federal regulations.  The 11 universities
had weaknesses in at least 1 control area that could have compromised the ability to safeguard
select agents from accidental or intentional loss, including:  (1) weaknesses in inventory
and/or access records; (2) weaknesses in access controls; (3) weaknesses in security plans;
(4) not providing training to individuals with access to select agents or not documenting
the means used to verify that individuals understood the training; and (5) not addressing
required areas in emergency response plans.  Officials at the 11 universities generally
agreed with our recommendations to strengthen their security controls.
We recommended that CDC resolve the recommendations in the 11 individual reports.  In
written comments on our draft report, CDC stated that the results of our audits were generally
consistent with the findings of its own inspections and that it was actively addressing the
concerns raised in our draft report.